UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




              Compliance With
      Unfair Labor Practice Procedures

                 Report No. OIG-AMR-68-13-01




                                               June 27, 2013
                                             CONTENTS

EXECUTIVE SUMMARY ............................................................................1

BACKGROUND..........................................................................................3

OBJECTIVE, SCOPE, AND METHODOLOGY...............................................3

FINDINGS................................................................................................. 5

FILING THE INITIAL CHARGE ..................................................................6

SERVICE OF AMENDED CHARGES ...........................................................8

INITIAL NOTICE TO THE PARTIES UPON FILING A CHARGE.....................8

  Days to Issue Initial Letter to Parties ....................................................9
  Initial Letter to Charging Party ........................................................... 10
  Initial Letter to Charged Party ............................................................ 11
  Initial Letters and NxGen .................................................................... 12
  Enclosures in Initial Letters ................................................................ 13
  Service of Initial Letter ....................................................................... 13

IMPACT ANALYSIS ................................................................................. 14

AFFIDAVITS ........................................................................................... 15

  Time Requirements for Lead Affidavits................................................ 15
  Content Requirements of Affidavits .................................................... 16
  Lead Affidavits .................................................................................... 17
  Additional Affidavits ........................................................................... 18
  Authorization for Telephone Affidavits................................................ 19

CONFIDENTIAL WITNESS QUESTIONNAIRES.......................................... 20

COMMERCE INFORMATION ................................................................... 21
SUBSEQUENT CHARGED PARTY CONTACT ............................................ 23

REGIONAL OFFICE DETERMINATION..................................................... 24

MERIT DETERMINATION........................................................................ 24

NON-MERIT DETERMINATION ................................................................ 25

WITHDRAWALS ...................................................................................... 26

CLEARANCE FROM APPEALS/ADVICE FOR WITHDRAWAL APPROVAL ... 27

COMPLAINT ........................................................................................... 27

TEST OF CERTIFICATION SUMMARY JUDGMENT CASES ....................... 28

DEFERRALS ........................................................................................... 29

REVIEW OF ARBITRATION AWARDS ...................................................... 29

APPEALS ................................................................................................ 30

EXCEPTIONS.......................................................................................... 31

DATA ACCURACY ................................................................................... 32


APPENDIX

        Memorandum from the Associate General Counsel, Division of
        Operations-Management, Response to Draft Report “Compliance With
        Unfair Labor Practice Procedures” (OIG-AMR-68), dated June 19, 2013
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

The Regional Offices are managed from Headquarters by the Division of
Operations-Management. To assess the Regions’ compliance with the
Casehandling Manual, the Division of Operations-Management has a Quality
Review Program that involves a managerial review of selected unfair labor
practice cases. Our prior audit of the Financial Remedies and Other
Settlement Terms, OIG-AMR-63-10-02, found in part that the Quality Review
Program did not appear to be working with regard to financial remedies. In
light of that finding, we were concerned with the effectiveness of the Quality
Review Program and the Regions’ overall compliance with the Casehandling
Manual when processing unfair labor practice cases.

To conduct this review, we randomly selected a statistical sample of cases from
seven Regional Offices. We stratified the sample based on whether a complaint
was issued to achieve a sample that had an equal number of cases with and
without a complaint issued. These procedures ensured that the sample of
cases would allow us to test attributes related to the issuance of a complaint.
The selected case files were then tested against procedural requirements of the
Casehandling Manual that spanned from the receipt of the charge through the
filing of exceptions with the Board.

In general, we identified several policies that were not being followed. Those
policies included recording the correct filing date, following the procedural
requirements for affidavits, meeting the time requirements for lead affidavits,
and documenting significant steps in processing unfair labor practice cases.
Overall we found that the Quality Review Program lacked effectiveness in
ensuring the Regions’ compliance with the Casehandling Manual’s procedural
requirements related to processing unfair labor practice cases. Based on our
findings, we made several recommendations that we believe will improve
management controls over the unfair labor practice casehandling process.

The Division of Operations-Management reviewed the draft report and
commented that while its Quality Review program does include a review of the
Regions’ compliance with the Casehandling Manual’s procedural requirements,
the focus of the Quality Review program is to evaluate the substantive quality
of Regional casehandling and decisionmaking at all aspects of casehandling
and their compliance with General Counsel initiatives. The Division of
Operations-Management noted that procedural missteps, unless repeatedly
made, are often addressed with the Region orally rather than in a written
report. Although the Division of Operations-Management stated that it agrees
that it is important for the Regions to follow the casehandling procedures and
that it also agrees with many of the recommendations set forth in the report, it
stated that it is important to keep in perspective the differences in approach
and emphasis of its Quality Review program and the audit. The Division of
Operations-Management also noted that the audit was conducted during the
transition to the Next Generation Case Management System and that the
transition may have contributed to the audit findings related to data entry.
The comments are provided as an appendix to the report.




                                       2
BACKGROUND

             The National Labor Relations Board (NLRB) Casehandling
             Manual Part I, Unfair Labor Practice Proceedings
             (Casehandling Manual) provides procedural and operational
             guidance for the Agency's Regional Office processing of
             unfair labor practice (ULP) cases. The Casehandling Manual
             is one of the Agency’s primary internal controls to ensure
             that ULP cases are processed in a uniform manner by the 51
             Field Offices.

             The Regional Offices are managed from Headquarters by the
             Division of Operations-Management. To assess the Regions’
             compliance with the Casehandling Manual, the Division of
             Operations-Management has a Quality Review Program that
             involves a managerial review of the ULP cases. The Agency's
             Performance and Accountability Report discusses the
             Quality Review Program.

             Our prior audit of the Financial Remedies and Other
             Settlement Terms, OIG-AMR-63-10-02, found in part that
             the Quality Review Program by the Division of Operations-
             Management did not appear to be working. In light of that
             finding, we were concerned with the overall effectiveness of
             the Quality Review Program and the Regions’ overall
             compliance with the Casehandling Manual when processing
             ULP cases.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to determine whether
             Regional Offices were processing ULP cases in compliance
             with the Agency's processes and procedures as outlined in
             the Casehandling Manual. Our scope was ULP cases that
             closed between August 15, 2010 and August 15, 2011. We
             conducted this audit at NLRB Headquarters in Washington,
             DC and at seven Regional Offices. To identify the Regions in
             this report, we assigned each Region a letter.

             We reviewed the Casehandling Manual to identify policies
             and procedures for the processing of ULP cases. We tested
             case processing from the time a charge is received through
             issuance of a complaint, withdrawal, dismissal, or deferral.
             We also reviewed Regional Office actions regarding following

                                 3
    up on deferred cases and the filing of exceptions to
    Administrative Law Judge decisions. For these tests, we
    used documents and information from individual case files.
    Also, because changes to the Casehandling Manual have
    occurred from time to time, we tested the requirement that
    was applicable to the case if there had been a change.

    In each Region that was included in the audit, we selected
    cases to test based upon a statistical sample. We chose to
    use a statistical sample because of the large number of cases
    processed and closed by the Regions (i.e. the size of the
    universe of cases). To be consistent with Government
    Accountability Office (GAO) guidance and our expected
    deviation rate, we used a sample size for each Region that
    would achieve a 90 percent confidence level in our results.
    The individual sample size for each Region is shown in the
    table below.

Region   Universe of Closed Cases     Sample Size
   A                 779                  76
   B                 823                  76
   C               1,012                  76
   D                 483                  74
   E                 615                  75
   F                 658                  76
   G                 405                  74

    We then stratified the sample based on whether a complaint
    issued. Stratification was used because the majority of
    cases processed by the Agency are closed pre-complaint and
    we wanted to ensure that the sample would allow us to test
    attributes related to the issuance of a complaint. Our intent
    was to have a sample from each of the Regions that was
    evenly divided between cases with a complaint and those
    that were closed pre-complaint. Because of our sampling
    method, the results of our testing can be projected to the
    population.

    In addition to our testing of the case files, we also tested 5
    data elements from the appropriate electronic case
    processing system against the information in the hard-copy
    case files. The data elements were either key processing
    points in a case or were used to select the sample of cases to
    test. During the period that we were testing, the Regions
    were converting from the Case Activity Tracking System

                         4
           (CATS) to the Next Generation Case Management System
           (NxGen). As of August 15, 2011, six of the seven Regional
           Offices tested had fully converted to NxGen, so the data
           tested for those Regions was from NxGen. Region G had not
           yet converted to NxGen, so the data tested for that Region
           was from CATS.

           Each case selected was individually tested; however, if there
           was a related case we reviewed the related case for any
           documentation that was necessary for the testing if the
           documentation was not in the selected case file. We note
           that not all case processing tests were applicable to every
           case that we tested.

           We conducted this performance audit in accordance with
           generally accepted government auditing standards during
           the period August 2011 through May 2013. Those
           standards require that we plan and perform the audit to
           obtain sufficient, appropriate evidence to provide a
           reasonable basis for our findings and conclusions based on
           our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions
           based on our audit objectives.


FINDINGS

           The GAO’s Standards for Internal Control in the Federal
           Government states that internal control activities help
           ensure that management's directives are carried out.
           Control activities are the policies, procedures, techniques,
           and mechanisms that enforce management’s directives.
           They include a wide range of diverse activities such as
           approvals, authorizations, verifications, performance
           reviews, and the creation and maintenance of related records
           that provide evidence of execution of these activities. The
           Standards also note that internal control is not one event,
           but a series of actions and activities that occur throughout
           an entity’s operations and on an ongoing basis.

           The Casehandling Manual sets forth management’s policies
           and procedures for the processing of ULP cases. The
           Casehandling Manual states that while Regional Directors
           and their staffs are expected to follow the Manual’s
           guidelines in the handling of cases, it is also expected that in
           their exercise of professional judgment and discretion, there
                                 5
              will be situations in which they will adapt these guidelines to
              circumstances. The Casehandling Manual also states that
              the case file should reflect all action taken in the
              investigation and must be sufficiently complete and current
              to permit appropriate supervisory review on an ongoing basis
              and, if necessary, to allow another agent to continue the
              investigation with a minimum of duplication.

              We identified several policies that were not being complied
              with, including recording the correct filing date, following the
              procedural requirements for affidavits, meeting the time
              requirements for lead affidavits, and documenting significant
              decisional steps in processing ULP cases. In general, we
              found that the Quality Review Program lacked effectiveness
              in ensuring the Regions’ overall compliance with the
              Casehandling Manual when processing ULP cases. The
              results of our testing are detailed below.


FILING THE INITIAL CHARGE

              The NLRB can initiate an investigation of a ULP allegation
              only upon the filing of an appropriate charge. A charge may
              be filed in person, by mail, or by facsimile at a Field Office in
              the Region in which the ULP is alleged to have occurred. The
              Casehandling Manual does not provide guidance to Field
              Offices regarding when a charge is considered to be filed.
              That guidance, however, is provided in the Regional Office
              Support Staff Manual. A charge is considered to be filed on
              the date it is received. If the charge is received after the
              close of business, the correct filing date is the following
              business day. The correct filing date must appear on all
              copies of the charge and must be the same on all Agency
              records, since this date may control future action on the
              case within the time limitations of the Act. According to the
              Casehandling Manual, once a charge is filed, the Regional
              Office will docket the case, categorize the case under Impact
              Analysis, and assign a Board agent. The charge sheet itself
              has a box to record the filing date that is identified as “date
              filed” and is directly to the right of the case number box.
              The filing date is recorded by handwriting or typing the
              information in a box directly to the right of the charge
              number. There is no corresponding box to record the
              docketing date.


                                    6
               For our testing, the date a charge was received was based on
               whether the charge had either a date stamp or a facsimile
               date, and the date filed was the date entered by the Regional
               Office on the charge. We identified initial charges in six
               Regions with different filed and received dates. This is
               shown on the table below.

                                                       No Facsimile
       Received and Filed                                or Date
         Dates Match or                                 Stamp to
       Following Business      Received and Filed       Document
Region Day is Appropriate      Date do not Match         Receipt       Total
  A            67                       4                    5          76
  B            57                       1                   17          75
  C            13                      10                   53          76
  D            64                       5                    4          73
  E            71                       1                    2          74
  F            72                       0                    2          74
  G            63                       3                    7          73

               Although each Region had cases with initial charges that
               were not date-stamped, either by a date-stamp or facsimile
               machine, in Region C we found that nearly 70 percent of the
               cases tested had a charge with no indication of when it was
               received. For 20 of the 23 charges in Region C that had an
               indication of when it was received, they did so because the
               charge was received by facsimile. The three remaining
               charges had a date stamp from a date-stamp machine. One
               of the cases that had a date stamp from a date-stamp
               machine was a charge that was filed beyond the National
               Labor Relations Act’s 10(b) period – the statute of limitation.
               This demonstrates that Region C personnel have access to a
               date-stamp machine and understand the importance of
               documenting the receipt of the initial charge, but have no
               practice of doing so. The two remaining charges had a date
               stamp that was after the date written in the “date filed” box.

               Because of the disparity between Region C and the other
               Regions, we compared the initial charge signed date and filed
               date that is written on the charge by Region C personnel just
               to the right of the case number. By doing so, we noticed
               gaps between the date signed and the date filed that ranged
               from a few days to 5 months. In 14 cases, the difference
               between the signed date and the filed date resulted in a due
               date under Impact Analysis that moved into the following

                                    7
                 month. This effectively gave the Region an extra month to
                 investigate the charge without having to report the case as
                 “overage.” When we reviewed the other Regions, we did not
                 observe the same disparity between the signed date and the
                 filed date.

Recommendation

1. We recommend that the Division of Operations-Management establish
   uniform procedures for documenting the receipt of a charge and recording
   the filing date in NxGen.


SERVICE OF AMENDED CHARGES

                 Once filed, a charge may be amended at any time prior to the
                 Regional Office’s disposition action. The Casehandling
                 Manual states that copies of amended charges must be
                 served on the charged party. Service may be by regular mail
                 and proof of service should be placed in the file.

                 We identified cases in three Regions where the affidavits of
                 service of the amended charges were not in the case file. The
                 results are summarized by Region in the table below showing
                 the number of affidavits of service found as compared to the
                 number of amended charges.

       Region      1st           2nd       3rd       4th
                Amendment     Amendment Amendment Amendment
          A      29 of 30       5 of 5    2 of 2    1 of 1
          D      18 of 21       7 of 7    2 of 2     NA
          G      25 of 27       6 of 6    1 of 2     NA


INITIAL NOTICE TO THE PARTIES UPON FILING A CHARGE

                 The Casehandling Manual states that immediately upon
                 docketing of a charge, the Regional Office sends initial letters
                 by regular mail to the charging party and to the charged
                 party. We were unable to test this requirement because the
                 docketing date is not recorded in any casehandling system.
                 We also observed, as indicated above, that the date written
                 in the “date filed” box on the charge sheet is not always the
                 date that the charge was filed. As stated above, the date the
                 charge was filed is either the date the charge was received in

                                      8
                  the Regional Office or the following business day if the
                  charge was received after normal working hours. Based on
                  our observation that the charge number and “date filed” are
                  written or typed in by Regional personnel, we speculate that
                  the docketing date is at times recorded in the “date filed” box
                  on the charge.

Days to Issue Initial Letter to Parties

                  To determine whether recording the docketing date is a
                  necessary internal control, we calculated the number of
                  workdays between the date recorded in the box labeled “date
                  filed” on the charge sheet and the date of the initial letter.
                  This information would show any delay between what could
                  be either the filing or the docketing of the charge and the
                  issuance of the letter. The results are summarized by Region
                  in the table below.

                       Charging Party Initial Letter
                  Number of Workdays to Issue the Letter
           Same
 Region     Day        1        2          3        4         5      No letter
   A        10        32       20          5        6         2           1
   B        13        43        5          0        0         0          14
   C         6        35       21         11        2         0           0
   D        28        32       10          1        1         0           1
   E                          No letters found                           74
   F         4        25       27          5        3         0          10
   G        10        40       22          1        0         0           0

                       Charged Party Initial Letter
                  Number of Workdays to Issue the Letter
           Same
 Region     Day        1         2          3        4         5      No letter
   A        10        32        19          4        6         2         3
   B        18        52         5          0        0         0         0
   C         6        36        20         11        2         0         0
   D        29        32        10          1        0         0         1
   E        10        46        16          2        0         0         0
   F         5        28        32          5        3         1         0
   G        10        36        19          1        0         0         7




                                       9
Initial Letter to Charging Party

                  The initial letter to the charging party provides notice and
                  acknowledgment of the filed charge and the name of the
                  assigned Board agent. The initial letters should encourage
                  E-Filing and refer the parties to the Agency’s Web site for
                  customer service standards.

                  The Regional Office’s initial letter to the charging party
                  should also request prompt submission of a complete written
                  account of all the facts and circumstances on which the
                  charge is based, copies of all relevant contracts and/or other
                  documents and the names and addresses of witnesses.

                  We found that Regions are using form letters. We reviewed
                  the case file to determine if it contained documentation of
                  the letter and whether the letter met the content
                  requirements. The results are summarized in the table
                  below.

                                                     Region
                                 A     B       C     D      E       F        G
Letter Not in the File           1     14      0      1     74      10       0
Acknowledgement of Filed
Charge                          Yes    Yes    Yes    Yes           Yes      Yes
Name of Agent                   Yes    Yes    Yes    Yes           Yes      Yes
Encourage E-Filing              Yes    Yes    Yes    Yes           Yes*     Yes
Refer to Web Site               No     Yes    Yes    Yes           Yes*     No
Requests Submission of
Facts and Circumstances          No    No     Yes    Yes            No      No
Request Copies of Relevant
Documents                        No    No     Yes    Yes            No      No
Request Names and
Addresses of Witnesses          Yes    No     Yes   Yes*            No      No*

* In Region D we found one letter in the case files that did not match the form
letter and did not meet the noted requirement. In Region F we found three
letters in the case files that did not match the form letter and did not meet one
or more of the noted requirements. In Region G we found a letter that passed,
but the form letter that was used in 72 cases failed the noted requirement.




                                       10
Initial Letter to Charged Party

                 As with the letter to the charging party, the initial letter to
                 the charged party provides notice and acknowledgment of
                 the filed charge and the name of the assigned Board agent.
                 The letter should also encourage E-Filing and refer the
                 parties to the Agency’s Web site for customer service
                 standards. The Regional Office’s initial letter to the charged
                 party should advise the charged party of the right to counsel,
                 invite full and complete cooperation, and specifically request
                 that the charged party submit a statement regarding the
                 facts and circumstances that form the basis of the charge.
                 The letter should also advise that the Regional Office will
                 accept no limitation on the use of any statement of position
                 submitted by the charged party in response to the charge,
                 specifically that the evidence and statements of position
                 submitted by the parties will be used without qualification or
                 condition. The letter should also assure the charged party
                 that no organization or person seeking to represent them has
                 any “inside knowledge” or favored relationship with the
                 Agency.

                 We found issues in all seven of the Regions. The results are
                 summarized by Region in the table below.




                      [TABLE ON FOLLOWING PAGE]




                                     11
                                                   Region
                              A      B       C      D      E         F        G
Letter Not in the File        3      0       0      1      0         0        7
Notice of Filed Charge       Yes    Yes     Yes    Yes    Yes       Yes      Yes
Name of Agent                Yes    Yes     Yes    Yes    Yes*      Yes      Yes
Encourage E-Filing           Yes    Yes     Yes    Yes    Yes       Yes*     Yes
Refer to Web Site            No     No      Yes    Yes    Yes*       No      No
Advise of Right to
                             Yes    Yes     Yes     Yes     Yes*     Yes     Yes
Counsel
Invite Full and Complete
                             Yes    Yes     Yes     Yes     Yes*     Yes     Yes
Cooperation
Request Charged Party
                             Yes    Yes     No     Yes*     Yes*     No*    Yes*
Statement
Inform that Evidence and
Position Statements Will
                             Yes*   Yes     Yes     Yes     Yes*    Yes*     Yes
Be Used Without
Qualification or Condition
Assure that No Inside
Knowledge or Favored         Yes    Yes     Yes     Yes     Yes*     Yes     Yes
Relationship

* In Regions A, D, and G we found one letter in the case files that did not
match the form letter and did not meet the noted requirement. In Region E we
found 11 letters in the case files that did not match the form letter and did not
meet one or more of the noted requirements. In Region F we found three
letters in the case files that did not match the form letter and did not meet one
or more noted requirements. In Region F we also found one letter that passed,
but the form letter that was used in 73 cases failed the noted requirement.

Initial Letters and NxGen

                  We observed that, after the Regional Offices migrated to
                  NxGen, the initial letters appeared to follow NxGen’s initial
                  letter templates. With the exception of enclosing the
                  Agency’s policies and procedures for electronic
                  communications and Forms NLRB-4541 and 4701, as
                  discussed below, the templates follow the Casehandling
                  Manual’s initial letter requirements. Our findings for initial
                  letters, however, demonstrate that, even when using a form
                  letter, Regional personnel appear to deviate from the Region’s
                  standard language and miss one or more of the
                  Casehandling Manual requirements. We are not aware of
                  anything in NxGen that requires the use of the templates for
                  preparation of the initial letters or that prevents Regional
                  personnel from altering the standard language found in the

                                       12
                  templates. We therefore believe that our findings with regard
                  to the initial letters remain relevant with respect to the
                  processing of cases in NxGen.

Recommendation

2. We recommend that the Division of Operations-Management amend the
   Casehandling Manual to require the use of NxGen templates.

Enclosures in Initial Letters

                  The Casehandling Manual states that the Agency’s policies
                  and procedures for electronic communications and Forms
                  NLRB-4541 and 4701 should be attached to the initial letters
                  to the charging party and charged parties. We observed that
                  the initial letters sent subsequent to the conversion to
                  NxGen do not attach these documents, but refer the parties
                  to the NLRB’s Web site or to the Regional Office to obtain
                  those documents. There has not been a corresponding
                  change in the procedures in the Casehandling Manual.

Recommendation

3. We recommend that the Casehandling Manual be updated to reflect the
   current procedures regarding the E-Filing Policy and Forms NLRB-4541
   and 4701.

Service of Initial Letter

                  The Casehandling Manual states that Regional Office’s initial
                  letter to the charged party serves a copy of the charge with
                  an affidavit of service retained in the file. In three Regions,
                  we identified case files that were missing the affidavit of
                  service. The results of our testing are summarized by Region
                  in the table below.

                   Region    Missing the Affidavit of Service
                     A                      2
                     D                      3
                     F                      3




                                      13
IMPACT ANALYSIS

                 The Agency developed a method of categorizing and
                 prioritizing cases based upon the impact of the resolution of
                 the charge. The Casehandling Manual states that since
                 cases in a higher category should receive greater resources
                 and have shorter time goals than cases in a lower category,
                 the Impact Analysis categorization should be made as soon
                 as possible, not later than 1 week from filing, and the
                 assignment of the Impact Analysis category should be
                 revised as warranted. We reviewed the case files to
                 determine whether the Impact Analysis was performed
                 within 1 week from the charge filing date.

                 We found that, in all seven Regions, the case file did not
                 contain documentation of when the Impact Analysis
                 categorization was made. We therefore could not determine
                 whether the categorization was done within 1 week of the
                 filing date as required in the Casehandling Manual.

                 We did find, however, in three Regions that some case files
                 were missing documentation of an initial Impact Analysis
                 categorization altogether. These results are summarized in
                 the table below.

                                  No Documentation of
                       Region       Impact Analysis
                         A                24
                         B                 2
                         F                 4

                 We observed that Region A did not use a form to document
                 the Impact Analysis determination, but instead placed a
                 “sticky note” on the charge designating the Impact Analysis
                 category. It is possible that the failures were because the
                 “sticky note” got lost. We also identified cases in six Regions
                 in which the Impact Analysis category had changed in the
                 casehandling system without the change being documented
                 in the case file.

Recommendation

4. We recommend that, in any action for which the Casehandling Manual has
   a time requirement, the Regions be instructed to document the date of the
   action in NxGen.

                                     14
AFFIDAVITS

Time Requirements for Lead Affidavits

                  The 2009 Quality Committee’s Comprehensive Report on
                  Quality Casehandling, issued by the General Counsel,
                  recommended that the lead evidence, or at least the lead
                  affidavit, be taken within 7 days from the filing of the charge
                  in Category III cases, 14 days in Category II cases, and 21
                  days in Category I cases.

                  We did not identify any guidance for what is considered the
                  lead evidence or lead affidavit in the Casehandling Manual.
                  We considered the “lead affidavits” to be those affidavits
                  taken from the charging party and any discriminatees
                  named in the charge, and we tested the lead affidavits to
                  determine if they met the time requirements. The results are
                  summarized by Region in the table below.

                Category I              Category II             Category   III
 Region      Pass       Fail         Pass        Fail        Pass          Fail
   A          1            0           8          26          20            11
   B          0            0          21          12          17            37
   C          0            0          16         24*          15            32
   D          1            2          11          24           5            26
   E          0            1          19          22           7            24
   F          0            0           7          18          12            20
   G          0            0          17          20           5            18

* We found an affidavit that was not dated that we considered a failure.

                  To determine how close the Regions were coming to meeting
                  the recommended time for taking the lead affidavits, we
                  calculated the number of days that passed from the
                  recommended time to the actual date of each lead affidavit in
                  Category II and Category III cases. We found that for the
                  313 lead affidavits that were taken beyond the recommended
                  time, 193 (62 percent) were taken more than a week after the
                  time requirement. We also found that of the 313 lead
                  affidavits, 59 (19 percent) were taken more than 4 weeks
                  after the time requirement. Our results are shown on the
                  table below.




                                       15
                        The Number of Days, in Increments, Beyond the 14-
                         day and 7-day Benchmark, for Category II and III
            Impact          Cases, Respectively, to Take Lead Affidavits
           Analysis       7     14     21      28      35     60       >60
Region    Category      Days Days Days Days Days Days                 Days
         Category II      5      7      1       4       4      2         3
  A
         Category III     8      2      0       0       0      1         0
         Category II      6      2      1       1       0      2         0
  B
         Category III    15      6      2       3       0      8         3
         Category II      6      4      2       0       2      7         2
  C
         Category III     8      9      8       4       0      3         0
         Category II      6      6      6       1       3      1         1
  D
         Category III    14      5      2       1       1      2         1
         Category II     16      4      1       0       0      1         0
  E
         Category III    10      7      3       0       4      0         0
         Category II      5      3      6       1       0      3         0
   F
         Category III     9      8      1       2       0      0         0
         Category II      3     11      1       2       0      2         1
  G
         Category III     9      5      2       0       1      0         1

Recommendation

5. We recommend that the Division of Operations-Management provide
   additional guidance on what is a lead affidavit and timelines. Such
   guidance should be incorporated into the Casehandling Manual.

Content Requirements of Affidavits

                  The Casehandling Manual provides detailed requirements
                  regarding the content of affidavits. Those requirements
                  include information related to the identity of the affiant,
                  employer and union, job information, background
                  information, a chronological account of the events, and
                  providing a confidentiality assurance. The affidavits should
                  also use certain language in the opening and conclusion. To
                  protect privacy rights, Social Security numbers should be
                  omitted from the affidavits, and only the last four digits of
                  the Social Security number may be used if necessary to
                  identify an individual.



                                      16
                  Upon completion of the affidavit, the witness should read,
                  initial each page and any corrections, and sign the affidavit.
                  After the witness has read and if necessary corrected the
                  affidavit, the Board agent should administer the oath and
                  upon receiving an affirmative answer, the Board agent
                  should complete and sign the jurat.

                  If an affidavit has been taken and sworn by telephone, the
                  Casehandling Manual requires the use of a jurat that is
                  different from the jurat language used in face-to-face
                  affidavits. If an affidavit is taken in a foreign language and
                  the Regional Office has it translated into English, a
                  translator certification should be added at the end of the
                  affidavit.

                  When the affidavit is complete, the Board agent is required
                  to give a copy of the signed affidavit to the witness and
                  obtain written acknowledgement of receipt.

Lead Affidavits

                  Because the lead affidavits form the basis for a prima facie
                  case, we tested those affidavits against 16 of the factual and
                  procedural requirements found in the Casehandling Manual.
                  For six of those requirements, we found that all the lead
                  affidavits for each Region met the requirements. Those items
                  were:


 Requirement
 Information related to the identity of the affiant, the employer and the union
 if appropriate
 Background information
 Chronological account of the events
 Confidentiality assurance
 Affidavits must omit SSN or can only include last 4 digits
 Does the affidavit open with "I [name] being first duly sworn upon my
 oath…”

                  For the remaining 10 requirements, the total number of lead
                  affidavits tested and the results of our testing are shown in
                  the table below.




                                       17
                                      Number of Lead Affidavits that Failed
                                            to Meet Requirement
                                   R-A R-B    R-C    R-D R-E        R-F R-G
 Total number of lead
 affidavits tested                 66   87     87      69    73     57     60
 Job information                    8    4      0       1     4      1      4
 Witness initialed each page        3    3     10       4     1      7     10
 Witness initialed each
 correction                         5   16     13      2     17      8     12
 Does the affidavit conclude
 with language from the
 Casehandling Manual, "I am
 being provided…”                  13    1      0      1      2      3      1
 Board agent signs the jurat        6   13      4      1      2      4      1
 If a face-to-face affidavit was
 taken, does it contain the
 jurat language in the
 Casehandling Manual?               1    2      2      0      0      3      1
 Do affidavits taken in
 foreign language contain a
 translator certification?          4    1      3      0      1      0      0
 If a telephone affidavit was
 taken, does it contain the
 jurat language in the
 Casehandling Manual?               5   10      1      4      2      3      0
 Copy of signed affidavit
 provided to the affiant            8    1      0      0      1      0      0
 Written acknowledgement of
 receipt provided by affiant       11    1      0      0      1      0      0

Additional Affidavits

                   For the affidavits that we considered to be non-lead
                   affidavits, we tested the affidavits against 11 of the
                   procedural requirements found in the Casehandling Manual
                   that would be applicable to every affidavit regardless of who
                   the affiant was. The requirements that we found all seven
                   Regions met for non-lead affidavits are listed below.




                                        18
 Requirement
 Information related to the identity of the affiant, the employer and the union
 if appropriate
 Confidentiality assurance
 Affidavits must omit SSN or can only include last 4 digits
 Does the affidavit open with "I [name] being first duly sworn upon my
 oath….”

                  For the remaining 7 requirements, the total number of non-
                  lead affidavits tested and the results of our testing are shown
                  in the table below.

                                   Number of Non-Lead Affidavits that Failed
                                            to Meet Requirement
                                   R-A R-B R-C R-D R-E            R-F R-G
Total number of non-lead
affidavits tested                 134      40    83    83     61    115     89
Witness initialed each page        15       1    10    15      1     12     17
Witness initialed each correction 11        6    16     9      6     19     17
Does the affidavit conclude with
language from the Casehandling
Manual, "I am being provided…” 26           1     0     0      1      4     0
Board agent signs the jurat         9      10     2     4      1      8     3
If a face-to-face affidavit was
taken does it contain the jurat
language in the Casehandling
Manual?                             5      1      0     0      0      8     2
Do affidavits taken in foreign
language contain a translator
certification?                      3      0      3     0      0      0     2
If a telephone affidavit was
taken, does it contain the jurat
language in the Casehandling
Manual?                             4      9      1    16      1      9     1

Authorization for Telephone Affidavits

                  The Casehandling Manual states that in Category I cases,
                  telephone affidavits are generally appropriate. In Category II
                  and III cases, face-to-face interviews are the preferred
                  method for obtaining affidavits; however, a Board agent may
                  take telephone affidavits only with supervisory authorization
                  and the Board agent should prepare a file memorandum

                                      19
                  setting forth the justification for taking the affidavit by
                  telephone.

                  We tested the lead affidavits to determine if they were taken
                  in person and, if they were not, whether there was
                  appropriate supervisory authorization for taking the affidavit
                  by telephone. The results are summarized by Region in the
                  table below.

                       Category II                         Category III
                            Documentation                       Documentation
                            of Supervisory                      of Supervisory
            Affidavits by Authorization or      Affidavits by Authorization or
  Region     Telephone      Memorandum           Telephone      Memorandum
    A             8                0                  1                 0
    B             4                3                  9                 6
    C             8                3                  3                 1
    D             3                0                  1                 0
    E             1                0                  2                 1
    F             7                1                  3                 0
    G             1                0                  1                 0

Recommendations

6. We recommend that the Division of Operations-Management develop a
   means to assist Regional supervisors in reviewing affidavits for compliance
   with the requirements of the Casehandling Manual.

7. We recommend that the Division of Operations-Management randomly
   select affidavits to be reviewed for compliance with the Casehandling
   Manual as part of the Quality Review process.


CONFIDENTIAL WITNESS QUESTIONNAIRES

                  The Casehandling Manual states that Confidential Witness
                  Questionnaires may be used as an initial screening device.
                  The following should be incorporated in all Confidential
                  Witness Questionnaires:

                        the questionnaire should state explicitly that it is
                         confidential;




                                       20
                  if anything else is remembered that is relevant or if the
                   witness desires to make any changes, the Board agent
                   will be immediately notified; and

                  if a copy is retained for the witness’ records and
                   shared with others it could reduce the Agency’s ability
                   to protect the document from compelled disclosure.

            Only two of the Regions used Confidential Witness
            Questionnaires and both Regions had cases where the
            questionnaires did not meet the requirements of the
            Casehandling Manual. In Region E, we found that one of the
            four questionnaires did not meet any of the requirements
            listed above. In Region F, we found that 9 of the 10
            questionnaires did not meet the following two requirements:

                  if anything else is remembered that is relevant or if the
                   witness desires to make any changes, the Board agent
                   will be immediately notified; and

                  if a copy is retained for the witness’ records and
                   shared with others it could reduce the Agency’s ability
                   to protect the document from compelled disclosure.


COMMERCE INFORMATION

            The Casehandling Manual states if the charged party is an
            employer, the initial letter should also request appropriate
            commerce information. As stated above, we found that the
            Regions were using a form letter for the initial letter to the
            charged party. We found that, except for Region B, the form
            letters used as an initial letter to the charged party
            requested appropriate commerce information. We also
            found, however, that in five of the seven Regions the same
            form letters were used as an initial letter to the U.S. Postal
            Service. Because the NLRB’s jurisdiction over the U.S.
            Postal Service as an employer is established by statute
            rather than commerce, it would appear to be inappropriate
            to request commerce information from the U.S. Postal
            Service. The results of our testing are summarized in the
            table below.




                                 21
         Initial Letter      U.S. Postal Service
          Requested        Initial Letter Requested
          Commerce         Commerce Information
Region   Information           Yes           No
  A           Yes                5            8
  B            No              N/A          N/A
  C           Yes                8            0
  D           Yes                0            4
  E           Yes                1            0
  F           Yes                2            0
  G           Yes                2            0

 We also reviewed the templates in NxGen for the initial letter
 to the charged party. We observed that there are several
 initial letter templates that have been tailored to address a
 variety of charges, including charges involving the U.S.
 Postal Service. We believe that our recommendation above
 regarding the use of NxGen templates would address the
 situation involving requests for commerce information from
 the U.S. Postal Service.

 The Casehandling Manual also requires that in any formal
 proceeding, commerce facts sufficient to determine whether
 the Board has jurisdiction over the dispute must be
 established either through factual stipulation or by record of
 evidence. We reviewed the case files, except for the U.S.
 Postal Service cases, to determine if there was evidence that
 the Region made a jurisdictional determination. We
 generally found that Regions were using a document titled
 “Final Investigative Report” (FIR) to document the
 determination that the employer met the jurisdictional
 commerce requirement. If the determination was not
 documented on the FIR, we then reviewed the case file and
 any related case file for any documentation that the
 employer met the jurisdictional commerce requirement. We
 found that in six Regions complaints were issued when the
 case file contained no documentation of commerce
 information and no evidence of the Region’s jurisdictional
 determination. The results are summarized in the table
 below.




                          22
                               Complaint Issued With
                                 Documentation of
                              Commerce Information or
                             the Region’s Jurisdictional
                                   Determination
                    Region        Yes            No
                      A           23              2
                      B           27              5
                      C           21             11
                      D           12              4
                      E           18              0
                      F           13              2
                      G           26              2


SUBSEQUENT CHARGED PARTY CONTACT

                Issuance of a complaint is the beginning of the ULP formal
                proceeding and clearly indicates that the Region has
                concluded that the evidence establishes a prima facie case.
                The Casehandling Manual states that if consideration of the
                charging party’s evidence and the preliminary information
                from the charged party suggests a prima facie case, the
                appropriate charged party representative should be
                contacted to provide additional and more complete evidence.
                The arrangements for the presentation of the charged party’s
                evidence and position should be documented in a letter from
                the Board agent to the charged party’s representative setting
                forth the due date for the presentation of the information.
                We tested this requirement and found that in five Regions
                the case file did not contain a copy of the required letter.
                The results of our testing are listed below.

                        Complaints     Complaint Issued and
               Region     Issued       No Letter in Case File
                 A          31                   11
                 C          39                    5
                 D          20                    6
                 E          21                    1
                 G          30                   12

Recommendation

8. We recommend that the Division of Operations-Management provide
   guidance to the Regions regarding this requirement.
                                     23
REGIONAL OFFICE DETERMINATION

              The Casehandling Manual states that cases may be
              presented for Regional Office determination at the conclusion
              of an investigation either by written or oral report to the
              Regional Director or other Regional Office official. The
              formats for written reports or oral agenda require a recitation
              of the allegations of the charge, the facts of the case,
              identification of the issues in dispute, an analysis of the
              facts and law and a recommended disposition. In both
              situations the Regional Office determination should be
              memorialized in writing.

              In six Regions, we identified cases where there was no
              determination that was memorialized in writing. When
              testing this requirement, we first looked at whether the
              determination was made in a written report or oral agenda.
              If it was a written report, we reviewed the report to determine
              if it met the Casehandling Manual’s requirements. If oral,
              we reviewed the case file for any written documentation that
              memorialized the Region’s determination. The results are
              summarized in the table below.

              Regional Office Determination Documented in Writing
     Region        Pass               Fail       Total Applicable
       A            52                 5                57
       B            54                 4                58
       C            54                 6                60
       D            49                 1                50
       E            59                 1                60
       F            48                 2                50


MERIT DETERMINATION

              If the charge is determined to have merit, the Board agent
              must notify the parties and solicit settlement of the charge
              before a complaint issues.

              In each Region, we found cases involving charges that were
              determined to have merit, but there was no documentation
              that the parties were notified or that a settlement was
              solicited before a complaint issued. The results are
              summarized in the table below.


                                  24
            Charging Party          Charged Party
                Contacted             Contacted          Solicited Settlement
 Region     Pass        Fail       Pass       Fail         Pass         Fail
   A          9          21         18         12           17           13
   B         19          18         23         14           25           12
   C         18          21         22         17           19           20
   D          7          13         13          7           17            3
   E          9          14         17          6           20            3
   F         11           6         12          5           13            4
   G          8          20         14         14           15           13

Recommendation

9. We recommend that the Division of Operations-Management provide
   guidance to the Regions regarding these requirements.


NON-MERIT DETERMINATION

                The Casehandling Manual states that if no merit is found to
                the charge, the Board agent informs only the charging party
                of the determination and the basis for it. The Board agent
                also provides the charging party with an opportunity to
                withdraw the charge. If the charging party declines to
                withdraw, the charge should be dismissed promptly. All
                dismissal letters must provide instructions for filing an
                appeal with the General Counsel.

                In five Regions, we found cases where the Region made a
                non-merit determination and we found no documentation
                that the Region notified the charging party or provided the
                charging party with the opportunity to withdraw. We also
                identified one dismissal letter that did not notify the charging
                party of the right to appeal the dismissal. Our results are
                summarized in the table below.

          Charging Party   Provided Opportunity      Dismissal Letter Notifies
            Contacted          to Withdraw              of Right to Appeal
 Region   Pass     Fail      Pass       Fail            Pass          Fail
   A       21       2         21          2              16            0
   C       26       6         17         15              18            1
   D       17       4         16          5              14            0
   F       38       1         38          1              22            0
   G       26       1         25          2               9            0


                                     25
Recommendation

10. We recommend that the Division of Operations-Management provide
    guidance to the Regions regarding these requirements.


WITHDRAWALS

                  The Casehandling Manual states that upon receipt of a
                  withdrawal request, the Board agent, with appropriate
                  supervision, should submit to the Regional Director a
                  recommendation regarding approval of the withdrawal.
                  When the charging party makes an unsolicited request to
                  withdraw the charge or a portion of it, the Board agent
                  should ascertain the reasons for withdrawal, which should
                  be included in the Board agent’s recommendation to the
                  Regional Director. On approval of a withdrawal request, the
                  Regional Office must notify all parties by letter that the
                  charge, or a portion thereof, with the Regional Director’s
                  approval, has been withdrawn. Our results are summarized
                  in the table below.

R    S    U                      If Unsolicited, Did
e    o    n                          Board Agent          Was there
g    l    s    Did Board Agent      Ascertain the       Documentation
i    i    o         Submit           Reasons and        of Appropriate
o    c    l    Recommendation       Include in the       Supervisory      Parties
n    i    i       Regarding      Recommendation            Review of     Notified of
     t    c        Approval           to the RD        Recommendation    Approval
     e    i
     d    t
          e
          d    Pass     Fail            Fail           Pass     Fail     Pass   Fail
A    16   26    17      25               0              17       0        40     2
B*   16   31    47       0               0              46       1        47     0
C    16   26    19      23               2              18       1        40     2
D     7   43    50       0               0              49       1        49     1
E    22   21    18      25               4              16       2        42     1
F    22   30    52       0              18              46       6        52     0
G    17   24    41       0               0              34       7        41     0

* One case in Region B was not included in our audit testing because a
withdrawal was approved, but the case file contained no documentation of
whether the withdrawal was solicited or unsolicited and no recommendation
regarding approval of the withdrawal.


                                       26
Recommendation

11. We recommend that the Division of Operations-Management provide
    guidance to the Regions regarding these requirements.


CLEARANCE FROM APPEALS/ADVICE FOR WITHDRAWAL APPROVAL

                 The Casehandling Manual states when a complaint has been
                 authorized by the Office of Appeals or the Division of Advice,
                 clearance for the approval of a withdrawal of the charge
                 should be obtained from the appropriate office.

                 Five of the seven Regions had cases that required clearance
                 from either Appeals or Advice prior to withdrawal. Our
                 results are summarized in the table below.

  Region    Total Applicable   Clearance Obtained    No Clearance Obtained
    A              1                   0                       1
    B              2                   0                       2
    C              2                   0                       2
    D              1                   0                       1
    F              2                   1                       1


COMPLAINT

                 The Casehandling Manual states that critical variances
                 between the allegations of the charge and the allegations of
                 the complaint will require appropriate amendments.
                 Normally, the complaint should conform to all allegations of
                 the last amended charge that have not been disposed of by
                 other means. Although occasionally the complaint may have
                 to be broader than the charge, the Regional Office should
                 normally seek an amended charge to cover all complaint
                 allegations. The charge must be broad enough, as a matter
                 of law, to support the allegations of the complaint. The
                 answer requirement and Notice of Hearing are set forth at
                 the end of the complaint.

                 We found that all the complaints in the case files contained
                 the answer requirement and Notice of Hearing. In two
                 Regions we found cases where the complaint did not conform
                 to all allegations of the last amended charge. We also
                 identified cases in two of the Regions where a complaint was

                                     27
              issued but was not in the case file. The results are
              summarized by Region in the table below.

                                   Did Not
                               Conform to Last
                  Complaints      Amended           Complaint
         Region     Issued         Charge           Not Found
           B          38              1                 1
           C          39              0                 8
           G          30              1                 0


TEST OF CERTIFICATION SUMMARY JUDGMENT CASES

              The Casehandling Manual states that Regions must be alert
              to recognize test of certification cases that may lead to
              summary judgment proceedings. Such cases involve an
              employer’s general refusal to recognize and bargain with a
              union that has been certified by the Region or the Board
              after an election is conducted pursuant to Section 9 of the
              Act.

              Once a summary judgment case is identified and the
              investigation establishes that the respondent is refusing to
              recognize and bargain with the charging party union in order
              to test the certification, a complaint should be issued
              promptly. Absent extenuating circumstances, such
              complaints should issue within 14 days from the filing of the
              charge. Normally, a Regional Office should file its Motion for
              Summary Judgment within 7 days after the respondent files
              its answer.

              Three Regions had applicable test of certification cases. In
              two of those Regions we identified cases where the complaint
              was not issued within 14 days from the filing of the charge
              and no extenuating circumstance was documented. We also
              identified cases in two of the Regions where the Motion for
              Summary Judgment was not filed within 7 days of the
              respondent’s answer. The results are summarized in the
              table below.




                                  28
             Number of Test of                          Motion for Summary
               Certification      Complaint Issued     Judgment Filed within 7
  Region          Cases            within 14 Days        Days after Answer
    B                1                    0                      0
    E                1                    0                      1
    G                3                    3                      1*

* This failure was due to the case file not containing the Answer to the
Complaint.


DEFERRALS

                   The Casehandling Manual states that if the Regional Office
                   determines that the charge should be deferred, the Board
                   agent should inform the parties and notify them of the basis
                   for the decision. In order to determine that a deferral
                   remains appropriate, the Regional Office should, on a
                   quarterly basis, ascertain from the parties the status of the
                   proceedings to which the Regional Office has deferred.
                   According to the 2009 Quality Committee’s Comprehensive
                   Report on Quality Casehandling, if no response is received
                   by the deadline date, the Region should call the parties and
                   send a second letter advising the charging party that a
                   failure to respond by the deadline date will result in the case
                   being dismissed. This requirement was not incorporated
                   into the Casehandling Manual. The results of our testing are
                   in the table below.

                           Parties Informed     Quarterly
                              of Deferral        Contact       Followed Up if
    Region    Deferrals     Determination      Documented      Non-responsive
      A           9               Yes              No                No
      B           5               Yes              No                No
      C           1               Yes              Yes              Yes
      D           4               Yes              No               Yes
      E           2               Yes              Yes              Yes
      F           5               Yes              No                No
      G           3               Yes              No                No


REVIEW OF ARBITRATION AWARDS

                   The Casehandling Manual states that following the issuance
                   of an arbitration award in a case that has been deferred

                                        29
                 under Collyer, the Region should conduct a review and take
                 certain action based on the results of that review. The
                 requirements of this review are dependent upon the type of
                 charge. In January 2011, the Casehandling Manual was
                 updated and now states that for certain charges, the case
                 should be submitted to the Division of Advice with a
                 recommendation as to whether to defer to the arbitration
                 award.

                 The 2009 Quality Committee’s Comprehensive Report on
                 Quality Casehandling states that Regions should establish a
                 deadline of 35 days for completion and reporting of a review
                 with final action to be taken within 14 days of the
                 determination. This requirement was not incorporated to the
                 2011 update to the Casehandling Manual.

                 Given the subjective nature of the required review, we tested
                 only the procedural time requirements and the submission
                 to the Division of Advice. The results of our testing are in
                 the table below.

                                        Failed to Take
          Number of   Failed to Perform  Final Action            Failed to
           Awards     Review Within 35 Within 14 Days of         Submit to
Region    Reviewed          Days        Determination             Advice
  A           3               2                3                     1
  B           2               2                1                    NA
  D           1               1                1                    NA
  G           1               1                1                     1

Recommendation

12. We recommend that the Division of Operations-Management provide
    guidance to the Regions regarding these requirements.


APPEALS

                 The Casehandling Manual states that upon receipt of an
                 appeal, the Regional Office should review the appeal and
                 determine whether reconsideration of the dismissal or
                 further investigation is warranted. We tested whether that
                 review and determination was documented by the Region as
                 required in the Manual.


                                     30
                   The Regional Office should submit the case file to the Office
                   of Appeals within 14 days of the Regional Office’s receipt of
                   the appeal; otherwise they should forward a memo to
                   Appeals explaining the reason for the delay and the
                   estimated date of submission. The transmittal memo should
                   set forth the Impact Analysis category of the case and
                   whether there are any related pending cases. In such
                   circumstances, the case number, filing date and current
                   status of such cases should be noted.

                   If the appeal or further investigation leads the Region to
                   conclude that allegations in the charge warrant complaint, it
                   should notify the Office of Appeals, prior to revocation, of its
                   intention to revoke the dismissal. The results of our testing
                   are in the table below.

                                          Transmittal
                         Memorandum      Memorandum      Transmittal
                         Transmitting    Dated within   Memorandum        Appeals
         Documentation    Case File to    14 Days of       Included      Notified of
          of Review by     Office of       Receipt of      Required     Revocation of
             Region        Appeals          Appeal       Information     Dismissal
Region   Pass   Fail     Pass    Fail    Pass    Fail   Pass     Fail   Pass   Fail
  A        9     0        9       0       5       4*     1        8*      1     0
  B       11     3        9       4       8       5*     0       13*      0     1
  C        9     1        0      10       0      10*     0       10*      0     1
  D        6     0        6       0       5       1      3        3      NA    NA
  E        8     0        7       0       5       2*     4        3      NA    NA
  F        5     0        5       0       4       1*     5        0      NA    NA
  G        3     0        3       0       0       3*     0        3      NA    NA

* Some failures were due to the Region not documenting the receipt of the appeal
or the transmittal of the case file or comment on appeal.


EXCEPTIONS

                   The Casehandling Manual states that exceptions must be
                   filed within 28 days of service of the order transferring the
                   case to the Board, unless an extension of time is granted.
                   Only two of the seven Regions had applicable cases where
                   exceptions were filed. We identified a case in Region A where
                   the extension of time and approval were not documented in
                   the case file.


                                         31
DATA ACCURACY

                The GAO’s Standards for Internal Control in the Federal
                Government states that information should be recorded and
                communicated to management and others within the entity
                who need it and in a form and within a time frame that
                enables them to carry out their internal control and other
                responsibilities. The Standards also note that for an entity
                to run and control its operations, the data must be relevant,
                reliable, and timely.

                We compared the casehandling data in NxGen or CATS, as
                appropriate, with the case file. The number of data errors is
                shown in the table below.

                         R-A   R-B    R-C    R-D    R-E     R-F     R-G
Number of Cases Tested   76    76     76     74     75      76      74
Date Filed                4     3     64     10      2       0       8
Closed Reason             8     3      6      1      5       2       2
Date Closed               9    15      7      0     34       5       2
Complaint Issued          4     0      1      1      0       0       0

                For Region C and Region E, we identified systemic issues
                with documentation that account for the high frequency of
                errors.

                   As noted above, Region C was not documenting the date
                    of receipt for filed charges.

                   When a charge is withdrawn, the closing date is
                    determined by the date the Regional Director approves
                    the withdrawal of the charge. Region E did not document
                    the Regional Director’s approval of the withdrawal request
                    in 32 of the 38 withdrawals. Therefore we could not
                    determine the closing date for those cases.




                                     32
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of the General Counsel
Memorandum


                                                 DATE: June 19, 2013


TO:           David Berry, Inspector General

FROM:         Anne Purcell, Associate General Counsel

SUBJECT:      Response to Draft Report “Compliance With Unfair Labor Practice
              Procedures” (OIG-AMR-68)

       We appreciate the opportunity to respond to the above-referenced draft report
dated May 23, 2013. In your letter forwarding the draft report, you have asked the
Division of Operations-Management to state whether it agrees or disagrees with the
recommendations contained in the report. You have also noted that if Operations-
Management disagrees with a recommendation, we should state the reason for the
disagreement and, when applicable, the legal or regulatory basis for the disagreement.

         Initially, it is noted that your review focused on the Regions’ compliance with
various procedural provisions of the Casehandling Manual. While the quality review
program does include a review of the Regions’ compliance with those procedural
provisions, that is only one aspect of the quality review program. The focus of the
quality review program is to evaluate the substantive quality of Regional casehandling
and decision making at all stages of case processing, and their compliance with
General Counsel initiatives. Often procedural missteps, unless repeatedly made, are
noted orally in the closeout of the review, but are not included in the written report. In
addition, the quality review program encompasses representation and compliance
cases, types of cases that were not reviewed in this study. Accordingly, while we agree
with the importance of Regions following established casehandling procedures and with
many of the recommendations set forth in your report, we also believe that it is
important to keep in perspective these differences in approach and emphasis. We
believe that the Division’s quality review program is an effective tool for ensuring that
the Regions’ work is of high quality and consistent with the General Counsel’s
initiatives.

        The draft report has identified a number of procedural issues. Initially, we will
advise all Regional Directors to review your report with an eye towards evaluating the
practices followed in their Regions. We will issue a memo emphasizing the need for
Regions to follow all procedural requirements and highlighting the procedural
deficiencies that were most frequently identified by your review. For instance, we will
re-emphasize (1) the importance of having affiants consistently initial every page and
                                             2


each change in their affidavits; (2) the requirement that the basis for asserting
jurisdiction should be in the file. We will also modify several casehandling procedures in
response to the draft report. Where a particular Region was identified by your review as
having frequently not followed a required procedure we have discussed the issue with
that Region and emphasized the need for the Region to comply with established
casehandling guidelines. By these measures the Regions will achieve compliance with
the procedures contained in the casehandling manual.

       I also note that your office conducted its review during a period when the field
was transitioning from CATS to NxGen. This transitional period impacted some of the
findings contained in your report. During this period Regions were learning the
requirements of NxGen, including the data entry requirements. Some of the data entry
errors identified in your report resulted from the Regions’ involvement in this transition
process. In addition, during this period Operations-Management, in conjunction with
representatives from the field, was at an early stage of developing NxGen templates for
use throughout the field. Considerable progress has been achieved in that area.

       Turning to the recommendations contained in your report:

       1) Recommendation that Operations-Management establish uniform
          procedures for documenting the receipt of a charge and recording the
          filing in NxGen.

          Answer: The Regional Office Support Staff Procedures Manual sets forth the
procedures for documenting and recording the receipt of a charge and for recording that
information in NxGen. Section 12002.7 of the Manual states that the date a charge is
filed is the date it is received by a Region (unless it is received after the close of
business in which case the filing date is the next business day) and that date must be
the same on all Agency records. We are in the process of revising the Manual, which
will include a provision that the filing date must be recorded in NxGen. We will
emphasize this point in the memo that will be issued discussing the findings of your
report. In addition, we will add a provision to the Support Staff Procedures Manual
stating that Regions should date stamp a charge, as well as a petition, form on the date
it is received.

       2) Recommendation that Operations-Management amend the
          Casehandling Manual to require the use of NxGen templates.

        Answer: This recommendation resulted from your review of the extent to which
the reviewed files contained appropriate docketing letters and whether those letters
contained the appropriate content. Since your review NxGen templates have been
developed and provided to the Regions to utilize in sending these letters. The template
for the initial docketing letter is now used by all of our offices. Thus, to the extent you
recommend that NxGen templates be used for initial letter to the parties, this has been
accomplished.
                                              3


       3) Recommendation that the Casehandling Manual be updated to reflect
          the current procedures regarding E-Filing Policy and Form-4541 and
          4701.

      Answer: We will modify the Casehandling Manual Committee to update the
manual to reflect the current practice of referring the recipient to the Regional Office or
the Agency’s website where the forms can be downloaded.

       4) Recommendation that, in any action for which the Casehandling
          Manual has a time requirement, the Regions be instructed to document
          the date of the action in NxGen.

       Answer: This recommendation resulted from your observation that we do not
require Regions to enter in NxGen the date when a case is assigned an Impact Analysis
category. The requirement for assigning an Impact Analysis category to a case within a
specific period after the filing date was adopted when Impact Analysis was initially
implemented. At that time there was a concern that the lack of familiarity with the
Impact Analysis program might result in undue delays in categorizing a case under
Impact Analysis. To avoid those delays the program adopted a time requirement for the
categorization of a case. Well over a decade has passed since the implementation of
Impact Analysis. In the numerous quality reviews conducted since that time, we have
not identified any issue regarding the timeliness of Regions categorizing cases under
NxGen. Our observation is that Regions uniformly categorize a case very shortly after a
case is received, almost always in far less than the 7-day period specified when the
Impact Analysis program was implemented. More importantly, the Regions are
surpassing the Agency’s time goals for processing cases. Accordingly, the actual date
of categorization is not important to our understanding of the case and we do not
believe that recording this information in NxGen would be time well spent. .

        In response to the principle incorporated in your report that where a specific time
period for performing an action is required by the Casehandling Manual, the date that
action is performed should be documented in NxGen, we will revise the Casehandling
Manual to state that a case should be categorized promptly, rather than 7 days after
filing. While we are not prepared to say we share your view that this principle should be
followed in every instance, specific time periods set forth in the Manual should be
updated, as necessary.

       5) Recommendation that Operations-Management provide additional
          guidance on what constitutes a lead affidavit and timelines and
          incorporate that guidance into the Casehandling Manual

       Answer: Based on our review of the Regions’ overall performance in meeting
Agency timeliness standards for the processing of charges, we do not believe that there
is a problem with the timeliness of obtaining lead affidavits. Nor does there appear to
be any confusion among the Regions about what constitutes a lead affidavit or the need
to obtain lead affidavits in an expeditious fashion. Despite compliance with this
                                             4


guidance, defining a lead affidavit is not always easy to articulate for all cases as the
definition may vary depending on the nature and number of allegations contained in a
charge.

       As noted in your report, the timeliness standard is not contained in the
Casehandling Manual but rather was contained in the 2009 Quality Committee
Comprehensive Report on Quality Casehandling. While we agree with the
recommendations contained in that report, it is also recognized that a myriad of factors
impact how quickly a lead affidavit can be obtained, including the availability of
witnesses, the travel required to meet with witnesses, constraints on travel due to
budgetary concerns, the staffing that exists within a particular Region at any one time
and the work assignments of the agent to which a case is assigned. For these reasons
we view the recommended timeliness guidelines contained in the Comprehensive
Report as guidelines to be pursued rather than strict procedures that must be achieved
to meet Agency standards and, as noted above, Regions are surpassing the Agency’s
goals for the timely processing of cases.

       However, the Casehandling Manual is used not only by the Regions but also by
the public. In recognition of the public’s need to have an understanding of Agency
procedures, we will attempt to define ”lead affidavit” and incorporate that definition as
well as a discussion of the timeliness guidelines for obtaining such into the
Casehandling Manual.

       6) Recommendation that Operations-Management develop a means to
          assist Regional supervisors in reviewing affidavits for compliance with
          the requirements of the Casehandling Manual.

        Answer: We will work with the field to develop a checklist of the requirements
that affidavits should satisfy and when that checklist has been developed we will
distribute it to the field for use by Board agents and supervisors.

       7) Recommendation that Operations-Management randomly select
          affidavits to be reviewed for compliance with the Casehandling Manual
          as part of the Quality Review process.

       Answer: As noted above, the quality review process does include a review of
the procedural requirements of the Casehandling Manual. We will continue to include
this as a component of the quality review process.

       8) Recommendation that Operations-Management provide guidance to the
          Regions regarding the requirement that the charging party’s evidence
          suggests the evidence of a prima facie case, in a request-for-evidence
          letter, the charged party’s representative should be contacted to provide
          additional and more complete evidence.
                                           5


          Answer: While it has been our experience that Regions consistently issue
request-for-evidence letters, we have and will continue to emphasize the importance of
meeting this casehandling requirement.

      9) Recommendation that Operations-Management provide guidance to the
         Regions regarding the requirement of notifying all parties after a merit
         determination and soliciting settlement from the charged party.

          Answer: We believe this notification is occurring, but there may be problems
with consistent documentation of these discussions. We will reaffirm with the Regions
the need to comply with this requirement and to document compliance in the case file.

          10.) Recommendation that Operations-Management provide guidance
          to the Regions regarding the requirement that, after a no-merit
          determination, that the Charging party be contacted and provided with
          the choice of withdrawing the charge or having it dismissed, and that
          the file should contain documentation of this contact.

         Answer: We believe the Regions are complying with this requirement, but
may not always be documenting these contacts. We will remind the Regions of the
need to comply with this requirement and to document compliance in the file.

          11.) Recommendation that Operations-Management provide Regions
          with guidance on the requirement in processing withdrawal requests
          that the file should contain: 1) a recommendation from the Board agent;
          2) if the withdrawal was unsolicited, documentation of the Board agent’s
          effort to ascertain the reasons for the withdrawal request; 3)
          documentation of supervisory review of the Board agent’s
          recommendation; and 4) a copy of the letter notifying the parties of the
          Director’s approval of the withdrawal request.

          Answer: While we note that most Regions performed well in meeting these
requirements, we agree that they should be followed and we will remind Regions of the
need to comply with these procedures.

          12.) Recommendation that Operations-Management provide guidance
          the Regions with regard to the time period for completing a review of
          the arbitration awards and guidelines for submitting to Advice certain
          cases raising the issue of a deferral to an arbitration award.

      Answer: We will remind Regions of these requirements.
                                           6


                                         Conclusion

       We believe that the foregoing addresses your concerns. We further note that
your report does not detract from the fact that the overall quality of the Region’s
investigations and decision making is excellent and done well within Agency time goals.




                                                      /s/A.P.
